HHS/OIG-Audit--"Transamerica Occidental Life Insurance Company for
Audit of Medicare Claims by Optometrists for Comprehensive Nursing Facility Assessments
for Calendar Years 1995 through 1998, (September 30, 1999 )"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Transamerica Occidental Life Insurance Company for Audit of Medicare
Claims by Optometrists for Comprehensive Nursing Facility Assessments for Calendar
Years 1995 through 1998," (A-09-99-00095)
September 30, 1999
Complete Text of Report is available in PDF format
(307 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of claims by optometrists
for comprehensive nursing facility (CNF) assessments during Calendar Years 1995
through 1998. We found that optometrists were not licensed to perform CNF assessments.
Nonetheless, optometrists submitted claims totaling $1,759,492 for these services,
and Transamerica paid them $957,366 for their claims. We recommended that Transamerica:
(1) issue a reminder to optometrists to bill Medicare only for services performed
within the scope of their licenses; and (2) implement computer payment edits
to prevent payment to optometrists for CNF assessments. Transamerica representatives
agreed with our audit findings and recommendations, and have implemented the
recommended corrective actions. We have requested that Transamerica not seek
recovery of the overpayments at this time as we are still evaluating the issue.